<html>
<title> - SIX YEARS LATER (PART II): SMART POWER AND THE U.S. STRATEGY FOR SECURITY IN A POST-9/11 WORLD</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
   SIX YEARS LATER (PART II): SMART POWER AND THE U.S. STRATEGY FOR 
                     SECURITY IN A POST-9/11 WORLD

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2007

                               __________

                           Serial No. 110-128

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
47-586 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 6, 2007.................................     1
Statement of:
    Armitage, Richard L., Commission on Soft Power, Center for 
      Strategic and International Studies; and Joseph S. Nye, 
      Jr., Ph.D., University distinguished service professor, 
      Kennedy School of Government, Harvard University...........    13
        Armitage, Richard L......................................    13
        Nye, Joseph S., Jr.......................................    96
Letters, statements, etc., submitted for the record by:
    Armitage, Richard L., Commission on Soft Power, Center for 
      Strategic and International Studies, prepared statement of.    15
    McCollum, Hon. Betty, a Representative in Congress from the 
      State of Minnesota, prepared statement of..................    12
    Nye, Joseph S., Jr., Ph.D., University distinguished service 
      professor, Kennedy School of Government, Harvard 
      University, prepared statement of..........................   100
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     8
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4


   SIX YEARS LATER (PART II): SMART POWER AND THE U.S. STRATEGY FOR 
                     SECURITY IN A POST-9/11 WORLD

                              ----------                              


                       TUESDAY, NOVEMBER 6, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. John Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Shays, Lynch, Higgins, 
McCollum, Van Hollen, Hodes, Welch, Platts, Turner, and Foxx.
    Also present: Representative Thornberry.
    Staff present: Dave Turk, staff director; Andy Wright and 
Andrew Su, professional staff members; Davis Hake, clerk; Dan 
Hamilton, fellow; Janice Spector and Christopher Bright, 
minority professional staff members; Todd Greenwood, minority 
legislative assistant; Nick Palarino, minority senior 
investigator and policy advisor; Benjamin Chance, minority 
clerk; and Mark Lavin, minority Army fellow.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs' hearing entitled, ``Six 
Years Later (Part II): Smart Power and the U.S. Strategy for 
Security in a Post-9/11 World,'' will come to order.
    The Members will be allotted 5 minutes to give their 
opening statements if they so choose at which point we will 
move to opening statements for our witnesses.
    I ask unanimous consent that the gentleman from Texas, 
Congressman Mac Thornberry, be allowed to participate in this 
hearing in accordance with the committee's rules and be allowed 
to question the witnesses after all official members of the 
subcommittee have had their first turn. Without objection, so 
ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee will be allowed to submit a written statement for 
the record. Without objection, that is so ordered as well.
    I want to just welcome and thank everybody for attending 
the important discussion that we are going to have here today. 
The Subcommittee on National Security and Foreign Affairs 
conducts our second hearing in a series focused on long term 
U.S. national security strategy, 6 years after 9/11.
    We are very fortunate today to engage in what I hope will 
be a robust and thought-provoking discussion with Secretary 
Armitage and Dean Nye. I thank both of you gentlemen for 
joining us today.
    Thank you also to all the members of the CSIS Commission on 
Smart Power including subcommittee member Betty McCollum, and 
our guest Representative, Mac Thornberry. Thank you for the 
talents and experiences you poured into the report that is 
being discussed today.
    It truly was an august commission. It was comprised of 
leaders from all three branches of government, from non-
profits, academia and the business community. I found the 
report to be insightful, and I think it will serve as a good 
jumping-off point for our discussion today.
    In the interest of spending as much time engaging in that 
robust discussion as possible, I am going to try to keep my 
remarks on the brief side.
    As I noted during the first hearing in the series, even 
with the amazing amount of money and energy expended and, more 
importantly, the lives lost, so far on military engagements and 
homeland security and intelligence since September 11, 2001, 
there remains an inescapable sense that ours is a national 
security policy adrift.
    Unfortunately, I can't report progress in the intervening 
weeks since that first hearing. In fact, the world, more than 
ever, seems to be slipping away from our influence.
    A nuclear and extremist-infected Pakistan is in full-blown 
crisis. Its path toward democracy has been barricaded by 
military rule, suspension of the Pakistani constitution and the 
suppression of civil institutions capable of dissent.
    U.S.-Iran relations are at a nadir, and the Bush 
administration has ratcheted up its saber-rattling rhetoric, an 
issue that, tomorrow, this subcommittee will continue to 
explore in depth in our series, ``Iran: Reality, Options and 
Consequences.''
    The prospect of a Turkish invasion into the Kurdish region 
of Northern Iraq conjures disastrous images of Turkish, United 
States and Iraqi forces at cross purposes on a single 
battlefield.
    In the words of a panelist from our first hearing, we have 
yet to act with the ``burst of creativity'' that was the 
trademark of the United States at the beginning of the cold 
war.
    Secretary Armitage and Dean Nye, the report you are issuing 
today will, I hope, help fill in this void.
    The 9/11 Commission rightly concluded, ``long-term success 
demands the use of all elements of national power.'' Not only 
does your report offer concrete and innovative ways to do just 
that, it also does something else I think is incredibly 
helpful.
    Your report spells out the path for our country to get back 
on the offensive, and by that, I don't mean in the military 
sense. You note in the very first paragraph of your executive 
summary, ``the United States must move from eliciting fear and 
anger to inspiring optimism and hope.''
    We have had a lot of the fear-mongering and the anger going 
on, and I think it is being reinforced every day. It was 
refreshing to read the charge to inspire optimism and hope.
    In the words of CSIS President and CEO, John Hamre, this 
means going back to the root of what makes America great, the 
fact that we are a country of both ``big ideas and common 
sense;'' that our country has a ``unique blend of optimism and 
pragmatism.''
    These are the ideals that I think have made our country as 
great as it is today, the ideals that make Americans proud to 
be Americans and the ideals that cause the rest of the world to 
want to follow us. Secretary Armitage and Dean Nye, as you 
rightly point out, these are the ideals, when pragmatically 
implemented, that will in the long term best secure the safety 
of our Nation, for us, our children and for our grandchildren.
    We live in dangerous world desperate for positive U.S. 
leadership--leadership borne of a coherent, effective and 
honorable national security strategy. And I have no doubt that 
at our core, the American people have the heart, the fortitude 
and the imagination to overcome current challenges.
    In 1963, Martin Luther King, Jr., reminded us of the 
``fierce urgency of now.'' It is well past time that we heed 
that call, and I thank you for your contribution to that with 
your report.
    Mr. Shays.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T7586.001
    
    [GRAPHIC] [TIFF OMITTED] T7586.002
    
    Mr. Shays. Thank you, Chairman Tierney, for holding this 
second hearing examining U.S. national security strategies. 
This subcommittee began looking at this issue even before 
September 11, 2001, so I am pleased we are continuing this 
important work.
    Today, we are joined by two very distinguished witnesses, 
Joseph Nye, and Richard Armitage, co-chairs of the Center for 
Strategic and International Studies Commission on Smart Power. 
I will leave it to the commissioners to explain their project, 
but I would like to go on record that I agree with its 
conclusion, ``America must revitalize its ability to inspire 
and persuade rather than merely rely upon its military might.''
    That is true because today we face a different type of 
enemy, and we have been slow to react to this new threat.
    In 1985, President Ronald Reagan recalled the horrors of 
the Iranian hostage crisis and the bombing of the U.S. Marine 
barracks in Beirut. He said, ``There is a temptation to see the 
terrorist acts as simply the erratic work of a small group of 
fanatics. We make this mistake at grave peril, for the attacks 
on America, her citizens, her allies and other democratic 
nations in recent years do form a pattern of terrorism that has 
strategic implications and political goals.''
    In that statement, President Reagan described what has 
become an overriding concern for the United States and its 
allies, terrorism. President Reagan foresaw what the world saw 
unfold on September 11, 2001, that terrorists would not be 
deterred by geographic, political or moral borders.
    President Reagan understood terrorists had their own 
political philosophy that makes them inherently at war with 
nations that subscribe to democracy and freedom, and he 
predicted the failure to take seriously the warped ideology of 
Islamic fundamentalists would lead to dire consequences for 
this Nation and our allies.
    During President Clinton's administrations, several 
commissions, Bremer, Gilmore and Hart-Rudman concluded we 
needed to recognize the threat. We need to recognize the 
threat, develop a comprehensive strategy to confront that 
threat, and improve, reorganize our government structure to 
implement the strategy.
    President Bush inherited a loose collection of Presidential 
directives and law enforcement plans from President Clinton 
that proved to be dramatically flawed. Regretfully, before 
September 11, 2001, the Bush administration did not address 
these flaws. The bottom line at the time of the 2001 attacks, 
the United States had been operating for years without a 
comprehensive strategy to protect us from our enemies.
    The current U.S. national security strategy acknowledges 
and reaffirms the reality that when all other methods fail, our 
leaders must have the option to proactively use force to 
protect the lives of our citizens.
    What we have learned over the past three decades is our 
strategies cannot be based on the naive assumption that 
governments and particularly groups committed to both 
sponsoring terrorism and acquiring weapons of mass destruction 
won't use them. September 11th taught us there is no red line 
the terrorists won't cross.
    We need to keep in mind no matter how many incentives or 
disincentives we develop, some terrorists are intent on our 
destruction no matter the cost. Diplomacy which is not backed 
up by military might is meaningless. However, as the Commission 
points out, we may have been relying too much on military power 
and have neglected traditional instruments of soft power such 
as intense dialog and diplomacy.
    With this in mind, I look forward to the testimony from our 
distinguished witnesses and I hope, Mr. Chairman, you will hear 
from other groups and commissions. In fact, I know you will. I 
thank you for your intent to hear from other groups and 
commissions about their views on how to improve our national 
strategy in environment where terrorist cells may be more of a 
threat than unfriendly nations.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T7586.003
    
    [GRAPHIC] [TIFF OMITTED] T7586.004
    
    [GRAPHIC] [TIFF OMITTED] T7586.005
    
    Mr. Tierney. Thank you, Mr. Shays.
    Ms. McCollum, you are recognized for 5 minutes.
    Ms. McCollum. Thank you, Mr. Chairman, and I won't take all 
5 because I am hoping we will have an opportunity for robust 
questions.
    Mr. Chairman, I want to thank you for your kinds words and 
let you know that it has been an honor to serve as a member of 
the Smart Power Commission along with our House colleague, Mac 
Thornberry, who is here with us today. I want to publicly thank 
our witnesses today, Richard Armitage and Joseph Nye, for their 
leadership as Co-Chairs of the Commission.
    The Center for Strategic and International Studies took the 
challenge of exploring America's current standing in the world 
and how to put forward a concrete recommendation to restore 
America's leadership using all of the tools in our strategic 
and foreign policy toolbox. I want to stress again, this study 
looked at America's standing in the world and what we need to 
do to change America's standing in the world to where it was 
only a few short years ago, one of respect, one of hope, one of 
optimism.
    We are the world's largest military. We are the world's 
greatest military power. We are the world's greatest economic 
power. Yet, in January 2009, the next President who will be 
leading our Nation will face tremendous challenges in this 
world. The world community wants U.S. leadership, not 
unilateral power where we dictate and expect other countries to 
yield to our policies.
    The Smart Power report makes recommendations for America's 
re-engagement in the world, using our capacity to improve lives 
and, by doing so, we create security and inspire hope. In 
short, again, we must use our power to once again become a 
world in which America is admired, a world in which America is 
once against respected and wanted as a partner.
    Mr. Chairman, I hope my colleagues in Congress will take 
this report seriously. Next year as we commence looking at the 
fiscal year 2009 the new President will inherit, I hope these 
recommendations are carefully considered in the future by this 
Congress, and I thank you so much again for having this hearing 
but including the Smart Power report as part of it.
    I yield back.
    [The prepared statement of Hon. Betty McCollum follows:]

    [GRAPHIC] [TIFF OMITTED] T7586.006
    
    Mr. Tierney. Thank you, Ms. McCollum. Because your 
colleagues are so taking this seriously, they are going to all 
forego their statements. They have 5 days to place their 
statements on the record.
    We would like to go right to our witnesses, if we could. I 
want to begin by introducing our panel.
    The Honorable Richard L. Armitage, Secretary Armitage has a 
distinguished record of service in our country including as a 
decorated Vietnam veteran, as an Assistant Secretary of Defense 
for International Security Affairs from 1983 to 1989 and as 
Deputy Secretary of State from 2001 to 2005. Secretary Armitage 
is currently president of Armitage International.
    Joseph S. Nye, Jr., Ph.D., Dr. Nye, Dean Nye served our 
country as chairman of the National Intelligence Council from 
1993 to 1994 and as Assistant Secretary of Defense for 
International Security Affairs from 1994 to 1995. He has also 
served as dean of Harvard Kennedy School of Government. Dean 
Nye is one of the foremost foreign policy authors of our day, 
having written books such as Soft Power: The Means to Success 
in World Politics.
    Welcome to you both.
    It is the policy of our subcommittee to swear you in before 
you testify.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that both 
witnesses answered in the affirmative.
    Mr. Shays. Would we note that Mr. Armitage was slow in 
getting out of his chair? [Laughter.]
    Mr. Tierney. He is bigger than I am. You can notice if you 
want.
    Your full written reports will be put on the record, and I 
believe with unanimous consent we can put a copy of the entire 
prepublication report in as well.
    We will give you 5 minutes, but we would like to be a 
little flexible on that. We understand this report is very 
important, and we would like very much to hear from each of 
you. So, please proceed.

 STATEMENTS OF RICHARD L. ARMITAGE, COMMISSION ON SOFT POWER, 
 CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES; AND JOSEPH S. 
 NYE, JR., PH.D., UNIVERSITY DISTINGUISHED SERVICE PROFESSOR, 
        KENNEDY SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY

                STATEMENT OF RICHARD L. ARMITAGE

    Mr. Armitage. Chairman, I am delighted. I will take 2 
minutes rather than the 5.
    I am delighted again to be in front of Mr. Shays, a man of 
great conscience. I know from my own personal experience with 
him during the run-up and aftermath of Iraq, the way he did his 
business, I think, was a great lesson to me in how to be 
involved in good governance.
    Ms. McCollum and Mr. Thornberry, it is good spending the 
day with you, and I am the better for it.
    Mr. Chairman, let me tell you what this report is about. 
This report is about prolonging and preserving our American 
preeminence as a force for good as long as is humanly possible. 
It is a report about how to complement U.S. military and 
economic might which must not only be maintained but 
strengthened with greater focus on American soft power which, 
in our view of the Commission, has atrophied in recent years.
    Mr. Chairman, as you mentioned, after 9/11, we started 
exporting something that was foreign to us. It was strange. We 
were exporting our fear and our anger, showing a sort of 
snarling face to the world rather than the more traditional 
exports that Ms. McCollum spoke about of hope, of optimism and 
opportunity.
    Now, we on the Commission believe that at the core of the 
problem is that we have made the War on Terror the central 
component of our global organization.
    To be sure, terrorism is real and it is a growing threat, 
but the fact of the matter remains that, absent access to WMD, 
the terrorists do not pose an existential threat to our way of 
life. They can hurt us. They have hurt us. They will try to 
hurt us again, but they can't change our way of life. However, 
we can change our way of life by the way we react to them.
    If we react through the excessive use of force or rejection 
of policies that are important to our friends and to our 
allies, if we appear to put ourselves above international legal 
norms, that encourages rather than counters terrorist 
recruitment overseas.
    Through some of our counter-terrorism policies, we have 
established a reputation for holding a double standard. That, 
indeed, has hurt our ability to engage certain partners and 
allies. We have to strike that balance between the use of force 
against violent extremism and other means of combating 
terrorism.
    Today, more than ever, after 6 years of war, our military 
is overstretched, and they are weary. Our military is still the 
best in the world, but it needs to be reset. However, 
investments in our military should not come at the expense of 
investments in our civilian tools of power nor vice versa. I 
guess what I am saying is we need guns and butter.
    I will stop there, Mr. Chairman, and turn it over to Joe.
    [The prepared statement of Mr. Armitage follows:]

    [GRAPHIC] [TIFF OMITTED] T7586.007
    
    [GRAPHIC] [TIFF OMITTED] T7586.008
    
    [GRAPHIC] [TIFF OMITTED] T7586.009
    
    [GRAPHIC] [TIFF OMITTED] T7586.010
    
    [GRAPHIC] [TIFF OMITTED] T7586.011
    
    [GRAPHIC] [TIFF OMITTED] T7586.012
    
    [GRAPHIC] [TIFF OMITTED] T7586.013
    
    [GRAPHIC] [TIFF OMITTED] T7586.014
    
    [GRAPHIC] [TIFF OMITTED] T7586.015
    
    [GRAPHIC] [TIFF OMITTED] T7586.016
    
    [GRAPHIC] [TIFF OMITTED] T7586.017
    
    [GRAPHIC] [TIFF OMITTED] T7586.018
    
    [GRAPHIC] [TIFF OMITTED] T7586.019
    
    [GRAPHIC] [TIFF OMITTED] T7586.020
    
    [GRAPHIC] [TIFF OMITTED] T7586.021
    
    [GRAPHIC] [TIFF OMITTED] T7586.022
    
    [GRAPHIC] [TIFF OMITTED] T7586.023
    
    [GRAPHIC] [TIFF OMITTED] T7586.024
    
    [GRAPHIC] [TIFF OMITTED] T7586.025
    
    [GRAPHIC] [TIFF OMITTED] T7586.026
    
    [GRAPHIC] [TIFF OMITTED] T7586.027
    
    [GRAPHIC] [TIFF OMITTED] T7586.028
    
    [GRAPHIC] [TIFF OMITTED] T7586.029
    
    [GRAPHIC] [TIFF OMITTED] T7586.030
    
    [GRAPHIC] [TIFF OMITTED] T7586.031
    
    [GRAPHIC] [TIFF OMITTED] T7586.032
    
    [GRAPHIC] [TIFF OMITTED] T7586.033
    
    [GRAPHIC] [TIFF OMITTED] T7586.034
    
    [GRAPHIC] [TIFF OMITTED] T7586.035
    
    [GRAPHIC] [TIFF OMITTED] T7586.036
    
    [GRAPHIC] [TIFF OMITTED] T7586.037
    
    [GRAPHIC] [TIFF OMITTED] T7586.038
    
    [GRAPHIC] [TIFF OMITTED] T7586.039
    
    [GRAPHIC] [TIFF OMITTED] T7586.040
    
    [GRAPHIC] [TIFF OMITTED] T7586.041
    
    [GRAPHIC] [TIFF OMITTED] T7586.042
    
    [GRAPHIC] [TIFF OMITTED] T7586.043
    
    [GRAPHIC] [TIFF OMITTED] T7586.044
    
    [GRAPHIC] [TIFF OMITTED] T7586.045
    
    [GRAPHIC] [TIFF OMITTED] T7586.046
    
    [GRAPHIC] [TIFF OMITTED] T7586.047
    
    [GRAPHIC] [TIFF OMITTED] T7586.048
    
    [GRAPHIC] [TIFF OMITTED] T7586.049
    
    [GRAPHIC] [TIFF OMITTED] T7586.050
    
    [GRAPHIC] [TIFF OMITTED] T7586.051
    
    [GRAPHIC] [TIFF OMITTED] T7586.052
    
    [GRAPHIC] [TIFF OMITTED] T7586.053
    
    [GRAPHIC] [TIFF OMITTED] T7586.054
    
    [GRAPHIC] [TIFF OMITTED] T7586.055
    
    [GRAPHIC] [TIFF OMITTED] T7586.056
    
    [GRAPHIC] [TIFF OMITTED] T7586.057
    
    [GRAPHIC] [TIFF OMITTED] T7586.058
    
    [GRAPHIC] [TIFF OMITTED] T7586.059
    
    [GRAPHIC] [TIFF OMITTED] T7586.060
    
    [GRAPHIC] [TIFF OMITTED] T7586.061
    
    [GRAPHIC] [TIFF OMITTED] T7586.062
    
    [GRAPHIC] [TIFF OMITTED] T7586.063
    
    [GRAPHIC] [TIFF OMITTED] T7586.064
    
    [GRAPHIC] [TIFF OMITTED] T7586.065
    
    [GRAPHIC] [TIFF OMITTED] T7586.066
    
    [GRAPHIC] [TIFF OMITTED] T7586.067
    
    [GRAPHIC] [TIFF OMITTED] T7586.068
    
    [GRAPHIC] [TIFF OMITTED] T7586.069
    
    [GRAPHIC] [TIFF OMITTED] T7586.070
    
    [GRAPHIC] [TIFF OMITTED] T7586.071
    
    [GRAPHIC] [TIFF OMITTED] T7586.072
    
    [GRAPHIC] [TIFF OMITTED] T7586.073
    
    [GRAPHIC] [TIFF OMITTED] T7586.074
    
    [GRAPHIC] [TIFF OMITTED] T7586.075
    
    [GRAPHIC] [TIFF OMITTED] T7586.076
    
    [GRAPHIC] [TIFF OMITTED] T7586.077
    
    [GRAPHIC] [TIFF OMITTED] T7586.078
    
    [GRAPHIC] [TIFF OMITTED] T7586.079
    
    [GRAPHIC] [TIFF OMITTED] T7586.080
    
    [GRAPHIC] [TIFF OMITTED] T7586.081
    
    [GRAPHIC] [TIFF OMITTED] T7586.082
    
    [GRAPHIC] [TIFF OMITTED] T7586.083
    
    [GRAPHIC] [TIFF OMITTED] T7586.084
    
    [GRAPHIC] [TIFF OMITTED] T7586.085
    
    [GRAPHIC] [TIFF OMITTED] T7586.086
    
    [GRAPHIC] [TIFF OMITTED] T7586.087
    
    Mr. Tierney. Thank you very much, Mr. Secretary.
    Dean Nye.

                STATEMENT OF JOSEPH S. NYE, JR.

    Mr. Nye. Well, thank you, Mr. Chairman.
    It is a pleasure to be able to address you and your 
distinguished colleagues on the Subcommittee on National 
Security and Foreign Affairs of the House Committee on 
Oversight and Government Reform and a particular pleasure to 
see on the panel in front of us two of the distinguished 
members of our Smart Power Commission, Representative 
Thornberry and Representative McCollum, who were major 
contributors. But that is not to implicate them. They can still 
as hostile questions if they wish.
    In any case, what I would like to do is pick up where Rich 
left off.
    This report is about power, and what we are trying to do in 
the report is widen the focus. Whoever is elected President 
next year is going to have a series of problems--Iraq, Iran, 
Pakistan--with which we are all daily preoccupied in the press 
and in the various conversations we have. Our feeling about the 
report was we needed to put these in a larger, longer term 
context which I gather is what you have been trying to do with 
these hearings of your committee.
    When I say that it is about power, I mean that the United 
States is going to be the world's leading power for the next 
several decades, but how we use that power in a world in which 
we are confronted with the rise of Asia and with a generation-
long problem of terrorists and extremists is going to be a key 
problem for us, and that is what we are trying to address.
    When we talk about power, we simply mean the ability to 
influence others to get the outcomes that one wants, and you 
can influence others in two ways. You can do it through hard 
power which is carrots and sticks, threats or payments. You can 
do it through soft power which is the ability to attract. When 
we talk about smart power, it is the ability to combine those 
two instruments into a single coherent strategy.
    If you look back historically, we did this very well as a 
country during the cold war. We, in fact, were able to deter 
Soviet aggression by our military capacity. At the same time, 
we were able to eat away belief in communism behind the Iron 
Curtain by the quality of our ideals, our public diplomacy, so 
that when the Berlin Wall, it fell not to an artillery barrage 
but to the onset of hammers and bulldozers.
    That was a smart power strategy, and we are going to need a 
strategy like that if we are going to deal with the types of 
problems that I mentioned, the generation-long struggle against 
extremists, terrorists and the issues of rise of new nations as 
well as a series of transnational challenges.
    Basically, the United States, because it will be the 
biggest, will always have a certain degree of the problem of 
being resented. The big kid on the block always has a bit of 
envy and a bit of resistance, but it matters a lot whether the 
big kid on the block is seen as a bully or as a friend. I think 
what we need to do is get in front of the world the positive 
views of how we can be seen as a friend, as Rich said, 
exporting hope rather than fear.
    If you look back at the experience of Britain in the 19th 
century, Britain was the largest country and what it did was 
provide a series of international public goods, things that 
were good for Britain but good for others as well, and that 
essentially made British power more acceptable. Such things as 
freedom of the seas, an open international trading system, a 
stable international monetary system, these were, if you want, 
in the public good.
    The United States, as the leading country, has the capacity 
to serve that public good. As we do so, we serve our own 
interests, but we also make our interests legitimate in the 
eyes of others and therefore increase our soft power. In that 
sense, it is a two for one proposition for us.
    What we argued in the report was that we needed to put 
these various problems that we face, which are very real 
problems, in that larger context in which the United States is 
seen as a country which is promoting a public good. In that 
sense, we believe that we need, we had five major headings in 
the report that fit under this category.
    We felt that it was important to reinvigorate alliances and 
institutions, that we have a long history, since the end of 
World War II, as being leaders in this area, that we need to 
reinvigorate that. One example that we gave of that was that it 
might be wise for us to ratify the Law of the Sea Treaty, but 
that is one of a number of examples.
    We also felt, second, that we should place development in a 
higher priority in our foreign policy. Development aligns our 
aspirations with the aspirations of others.
    Of the dimensions of development that we thought were most 
important, we focused on public health and a particular 
initiative on public health which would allow us to not only do 
ourselves good by improving the public health conditions in 
poor countries, which reduces the dangers of pandemics and the 
dangers or at least the benefits of early information about 
them but also helps people in those countries. In that area, 
which Congresswoman McCollum was very good on in our 
Commission, I think we have something very useful to say.
    The third heading was public diplomacy and particularly 
focusing on the fact that public diplomacy is more than 
broadcasting, which tends to be one way, but that the real 
value in public diplomacy is what Edward R. Murrow called the 
last 3 feet, that face to face communications which is two-way.
    There, we felt that the fact that there are 500,000 foreign 
students in the United States was a major gain for us in soft 
power, but the fact that you now have 200,000 American students 
going overseas is equally important. We felt that could be 
illustrated, perhaps, with one specific recommendation in the 
report which is that we ought to double the size of the 
Fulbright Program.
    A fourth area was to maintain an open international 
economy. Globalization produces problems for many people but, 
on the larger picture, globalization provides opportunities for 
development and growth. If we turn away from globalization, we 
will in fact be hurting ourselves as well as hurting poor 
people in poor countries.
    We need to foster an open international economy as we have 
in our past and do that in the context of taking care of those 
who don't benefit quite as much as others from that opening. As 
an example there, we felt that moving ahead with the Doha Round 
and completing it was a concrete case.
    Finally, we felt that if we look at the large challenges we 
face in the areas of climate change and energy security, that 
we have a great deal to contribute here in our tradition of 
innovation. American technology and innovation can make major 
contributions.
    One example that we came to was the problem of coal-burning 
in China. China is adding about two coal-burning plants a week. 
That puts as much CO<INF>2</INF> into the atmosphere or all 
Chinese plants that burn coal put as much CO<INF>2</INF> into 
the atmosphere as we do in our transportation system in a year. 
We can't stop China from doing that. This is a case where hard 
power instruments won't do any good.
    But if we were to develop the capacity to set up a new 
institution which used or tapped into our technological 
innovation to help China develop a cleaner coal itself, we 
could benefit the Chinese, benefit ourselves and benefit the 
rest of the world. That is another good example, if you want, 
of being able to provide global public goods.
    So those were the five areas that we used as examples of 
how you could try to put America into this larger perspective 
which makes us a friend as the big kid on the block rather than 
the bully as the big kid on the block.
    But, finally, we ended by saying that one of the problems 
we face is how to put our own house in order. There are a 
number of dimensions to that, but if you think about the way 
the U.S. Government is organized, both in the executive branch 
and the Congress, we are not integrated. We are not organized 
to integrate the tools in our toolbox of power. We don't know 
how to relate the hard power and soft power tools into a smart 
power strategy.
    We spend $750 billion more or less on defense. We spend 
about $1.5 billion on public diplomacy. But even within those 
numbers, there are problems about tradeoffs.
    For example, if the Broadcasting Board of Governors wants 
to save tens of millions of dollars by stopping shortwave 
broadcasts in English, that is a tiny sum compared to the 
larger questions in the defense budget, but there is no place 
in the U.S. Government where you can tradeoff, where you can 
have a strategy which asks is this a wise decision or is that a 
wise decision.
    We recommend in that sense that there should be a new 
deputy to the President on the National Security Council, dual-
hatted with the Organization of Management and Budget, to 
establish a quadrennial smart power review like the QDR in the 
Defense Department for defense hard power alone and to have the 
job of constantly updating and implementing it to make sure 
that agency budgets and strategies fit within it.
    We also felt that it is important to realize that much of 
America's soft power and impact on the rest of the world is not 
produced by the government but produced by our civil society. 
An example would be the Gates Foundation work on HIV and other 
diseases in Africa, but there are many smaller non-profit 
organizations and foundations which could benefit from some 
help here in terms of contacts with other parts of the world.
    We felt that a government fund or institution which would 
have government funding but a firewall of independent 
directors, who would then support but not control American 
private actors in their face to face relations with peoples in 
other countries, would be a very useful additional innovation 
in the area which your committee is concerned with.
    So these are some examples of the types of things that are 
in the report. Obviously, in this short presentation, we can't 
possibly touch all the material that is there, but we did want 
to give you the general flavor of what we mean when we talk 
about widening the lens and putting our overwhelming current 
problems in a broader and longer term perspective.
    Thank you very much.
    [The prepared statement of Mr. Nye follows:]

    [GRAPHIC] [TIFF OMITTED] T7586.088
    
    [GRAPHIC] [TIFF OMITTED] T7586.089
    
    [GRAPHIC] [TIFF OMITTED] T7586.090
    
    [GRAPHIC] [TIFF OMITTED] T7586.091
    
    [GRAPHIC] [TIFF OMITTED] T7586.092
    
    [GRAPHIC] [TIFF OMITTED] T7586.093
    
    [GRAPHIC] [TIFF OMITTED] T7586.094
    
    [GRAPHIC] [TIFF OMITTED] T7586.095
    
    [GRAPHIC] [TIFF OMITTED] T7586.096
    
    [GRAPHIC] [TIFF OMITTED] T7586.097
    
    [GRAPHIC] [TIFF OMITTED] T7586.098
    
    [GRAPHIC] [TIFF OMITTED] T7586.099
    
    [GRAPHIC] [TIFF OMITTED] T7586.100
    
    [GRAPHIC] [TIFF OMITTED] T7586.101
    
    [GRAPHIC] [TIFF OMITTED] T7586.102
    
    Mr. Tierney. Thank you very much. I thank both of you for 
that.
    Let me start the questioning if I can, and I am not sure 
how to phrase this as eloquently as I would like, but I think 
you made the point in your report very succinctly that this 
idea of this War on Terror being the central premise of our 
foreign policy needs to be replaced.
    I think in the current political climate, I want to know 
what your response is to those that seem to be just beating 
that drum, that it is always the War on Terror, that to focus 
on something else is weak on defense, is weak on our security. 
Can you just talk a little bit more about putting into 
perspective the issue of terrorism amongst all of the other 
long term strategies that we need to deal with in terms of 
good, solid foreign policy?
    What would you say to those on both sides of the aisle, 
marching down to the Presidential thing, trying to out-tough 
one another by focusing only on the so-called War on Terror and 
not broadening it out as you recommend?
    Mr. Armitage. Well, I would start with the obvious, that a 
Nation as great as ours ought to be able to do two or more 
things at once.
    Second, that this single focus on the Global War on Terror, 
to a large extent in my view, is taking our gaze off where our 
long term national equities are, for instance, the whole center 
of gravity of the world is moving to Asia. Whether you look in 
terms of size of population, size of military, size of GDPs, 
everything, it is shifting to Asia. Whether we are able to take 
advantage of that shift is a real question because we are 
spending all our time on the central organizing principle of 
the War on Terror.
    I am not arguing, none of us on this Commission would argue 
that terrorism isn't a real and, as I said, a growing threat. 
But absent of WMD, it is not an existential threat.
    It is not like fascism was in the thirties and forties. It 
wasn't like communism was throughout the cold war. This is a 
different phenomenon, and we ought to be able to do two things 
at once.
    Mr. Tierney. Thank you.
    Mr. Nye. I agree with that, and I don't think that one 
should read the Commission recommendation here as saying we 
should let down our vigilance in the struggle against 
terrorism.
    What we have seen over the 20th century is that terrorist 
movements generally tend to last a generation. We are not done 
with this.
    What we have also seen is that they burn themselves out 
over time if you don't overreact to them. Terrorism is a little 
bit like jujitsu. You have a weak player who only defeats a 
large player by using the strength of the large player against 
himself.
    So what we do to ourselves is often more important than 
what they do to us directly, and that means that we have to be 
very careful how we react. For example, if we, after a 9/11, 
cut out visas for foreign students, we are serving their 
interests, not ours.
    Terrorism is about fear, about their gaining attention. To 
the extent which we give that attention, they gain, not we.
    If we also think of the fact that the words, War on 
Terrorism, as a narrative have been interpreted in much of the 
world as war against Islam, that is clearly not our intent, but 
that may be the effect as public opinion polls show.
    So what we are arguing in the Commission report is not to 
let down our guard one iota in a struggle, a generation-long 
struggle against terrorism but to be more careful in our 
narrative in presenting to the world a much broader picture 
which is what we are recommending in the Commission report and 
not just a short run slogan.
    Mr. Tierney. Thank you.
    I was looking at some of the language in your report, and I 
thought it was well done: Power is the ability to influence the 
behavior of others to get a desired outcome. Soft power is the 
ability to attract people to or side without coercion.
    Legitimacy is central to soft power and, if America's 
objectives are believed to be legitimate, we are more likely to 
persuade people to our view.
    Victory depends on attracting foreign populations to our 
side and helping them build capable demographic states.
    I thought that was a good choice of words, populations not 
foreign governments necessarily.
    Can you discuss those concepts in the context of the U.S. 
role in what is going on in Pakistan today?
    Mr. Armitage. Well, I was asked a similar question earlier 
at lunch today, Mr. Chairman. It was if we had all these 
recommendations of smart power in place today, would Pakistan 
be in this position? Well, my answer was if we had all these 
recommendations in place in, oh, say 1990, we may be in much 
better position in Pakistan.
    The reason I say that is one of the things we are wrestling 
with now is the fact we have a gap of about 10 or maybe 12 
years of no interaction with Pakistan military officers and no 
meaningful interaction with government figures. So we have 
really cut ourselves out of the game for a while. So the people 
are going to be sort of pivotal in the next few years in 
Pakistan, we have no knowledge of.
    So I would argue that smart power is something that only 
can be judged over a significant period of time. It can't 
solely be judged by opinion polls and how much affection the 
United States is held in.
    It is somewhat like what Joe Henley famously responded to 
when asked was the French Revolution successful, and he said it 
is too soon to tell. That is kind of a smart power. For 1, 2, 3 
years, it is going to be soon to tell.
    Mr. Tierney. I guess part of my point was we have a 
situation over there now where the middle class, the lawyers, 
the judges, the business people or whatever seem to be on one 
side of the fence and the military establishment on the other. 
I would guess that we have to be real careful about whether or 
not we side with the people of Pakistan or are perceived to be 
siding with or against them on this, and it is going to be a 
real delicate use of smart power in that situation.
    Mr. Armitage. I think the question of Pakistan is so 
complicated that you are right. People seem to be on one side 
and the military, and I would say the elites on the side with 
President Musharraf.
    The question then is what happens with our involvement in 
this?
    Do we actually add to the situation in a positive way by 
publicly being seen as promoting Ms. Bhutto? I think opinion 
polls in Pakistan would say, no, we have actually had the 
reverse phenomenon. We have actually hurt her. So she is seen, 
to some extent, as an American girl.
    Mr. Tierney. Well, if we supported just her and not 
supported the democratic process and let it go wherever it 
goes.
    Mr. Armitage. And you will notice our Ambassador today made 
a very graphic point of going with a CBS camera crew to the 
electoral commission to make the point we want elections, 
democratic, open and fair.
    Mr. Tierney. Thank you. We have been after him to make that 
statement months and months and months ago. Today is as good as 
any day, I guess.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I appreciate your and 
the ranking member's hosting the hearing and, to both of our 
witnesses, thank you for your many years of dedicated service 
to our Nation including with this Commission.
    Actually, the chairman touched the first issue I wanted to 
raise which is trying to apply the principles espoused in the 
report to the current environment in both Pakistan and 
Afghanistan are kind of interrelated. Mainly, I think one of 
the very important points you make is when we talk about soft 
power, that legitimacy is critical to being able to invoke soft 
power, be successful.
    In Afghanistan, one of the issues, having just returned 
with my colleague, Steve Lynch from Massachusetts, a couple 
months back, the drug trade in Afghanistan is a huge problem. 
From individuals serving there, both military and civilian, 
that I have met with there or here, our legitimacy within the 
populace of Afghanistan is diminished because of the drug 
issue. We are saying what we want in hope that President Karzai 
will do, but we are standing by while nothing happens.
    In a similar issue in Pakistan where we are working with 
President Musharraf while he is cracking down now, as the 
chairman referenced, throwing others and lawyers in jail. Both 
of those issues, to me, seem to undercut our legitimacy to 
build relationships with the people of those nations to then be 
with us in the War on Terror.
    That would be the first question, and then I have a 
followup. So, thank you.
    Mr. Armitage. Thank you, sir.
    I think the two are somewhat different. Legitimacy in 
Afghanistan, I think was certainly there immediately following 
our invasion. Certainly, the hopes were high, and there wasn't 
any question about the speed and the agility of the U.S. forces 
to bring about a change of a hated regime.
    Where we have begun to be questioned is whether we are 
competent enough to actually follow through on this, and that 
is where, in Afghanistan, I believe our legitimacy begins to be 
questioned.
    On Pakistan, I think it is slightly different. It is quite 
clear. I personally have a high regard for President Musharraf 
and what he has done, what he has personally suffered and, by 
the way, what his country has suffered in the federally 
administered tribal areas of 800 or so killed, now 300 soldiers 
captured and missing. So he has sacrificed a good bit.
    Having said that, however, if he is not able and we are not 
able to make him live up to the word he gave us, then we have 
to hammer him, I am afraid.
    Now I think there are two ways to do it. You can just stand 
up and make a declaratory policy or you can say you think he is 
wrong, he has made a bad error and we wish, as a friend, he 
would correct that error. I think that is the way to handle 
this initially.
    The accusation will be is that we are weak and sort of a 
little weasel-worded. The stakes are too high in Pakistan for 
all of us, I think, to be too declaratory at this early a 
stage.
    He has moved a bit back to, as I understand, having 
elections in January, thank goodness. I think the next move is 
to get him to again say he will get out of uniform and start 
letting these folks out of jail and jail terrorists and 
extremists and not legitimate opposition.
    Mr. Nye. I agree with what Rich said. On Afghanistan, the 
drug problem is a very severe problem. On the other hand, 
unless we do something on security first and economic 
opportunities other than drugs, we are not going to solve the 
drug problem.
    I think the success in Afghanistan is going to be 
absolutely crucial. We are not only invested there in the terms 
of the legitimacy of why we went in, but we are invested there 
in the sense that we have our NATO alliance heavily involved.
    It is crucial that we not lose that, and that is probably 
going to take more military force from the American side, but 
it is also going to take more resources to provide the economic 
developments and the components that we call soft power. That 
would be a smart strategy there.
    On the Pakistan case, I agree with that as well, with what 
Rich said. I think we should be pressing very hard for General 
Musharraf to get out of uniform and to hold elections and, if 
not, I think we have to ask ourselves whether we need to 
reassess.
    Mr. Platts. A quick followup, Dean, your answer about 
Afghanistan and the humanitarian or the non-military investment 
is my followup in the big picture, not just Afghanistan and 
Pakistan because to be able to do what the Commission 
recommends or the principles espoused, having our public 
support is critical.
    How do we better get the American public to understand that 
investing in USAID projects, investing in humanitarian 
assistance, all the non-military assistance around the world is 
equally important to the military investment we make in 
protecting us?
    In central Pennsylvania, I never have a problem with the 
vote for military. When I vote for foreign aid, the public at 
large doesn't yet understand the importance. Is there any 
suggestions how to better educate the public how they are 
directly connected?
    Mr. Nye. I think it is a tough sell, as you know better 
than I, but on the other hand, the extent to which we can 
explain to the public that this is in our interest. In other 
words, for American security, we need to make sure that things 
are changing there.
    Remember when the cold war was on, when the Russians were 
in Afghanistan, Afghanistan got a lot of attention, a lot of 
money. The Soviets withdraw. Afghanistan goes off our radar.
    If you said to an American, why should I spend money on 
anything for aid in Afghanistan, the answer would have been it 
is too bad for the Afghans, what is going on there, but what 
difference does it make to us?
    On 9/11, we found out that bad conditions in a poor country 
half-way around the world could make a huge difference to us. I 
think that is the kind of argument you need to make to show 
your constituents and our fellow citizens that it is in our 
interest as well as the interest of the others to do something 
about this.
    Mr. Armitage. Congressman, not having to stand, it is much 
easier for us to answer your question than perhaps for you and 
your colleagues, but I have always found it somewhat effective 
to be absolutely frank.
    Dr. Nye and I aren't professional do-gooders. We are 
fellows who pride ourselves, to the extent we can, on being 
realists and people who practice sort of cold calculations of 
national security. I would argue that many of the elements of 
smart power that we talk about are not a matter of 
philanthropy. It is a matter of cold calculations of national 
security.
    Now that is rather dramatic talk and dramatic, florid 
language to use, but I find that actually putting it in those 
terms, you get a different, slightly different reception. This 
is not a matter of sort of an airy-fairy, well, let's all feel 
good and sing Kumbaya. This is cold calculations of national 
security.
    Mr. Platts. Thank you both.
    Mr. Chairman, thanks for your discretion.
    Mr. Tierney. Ms. McCollum, you are recognized for 5 
minutes.
    Ms. McCollum. Thank you, Mr. Chair.
    One of the smart power recommendations that I would like to 
highlight and I also strongly endorse is the creation of the 
cabinet level Department of International Development to bring 
in integrated, coherent strategy and structure to our foreign 
assistance.
    In light of what we have seen happen where there was very 
little oversight input from the Congress, I would like you 
gentlemen to elaborate on your recommendation why you think 
this is a smart use of power.
    I would just add I think the VOA, Voice of America, and 
some of the programming that is being cut over there probably 
might not be looked at being cut if we had a cabinet level 
where we are looking at an integrated approach.
    Mr. Armitage. Thank you, Ms. McCollum.
    I think it is a good recommendation if you don't take the 
point of view that Washington can solve the problems and a 
cabinet level office has to look like Homeland Security or one 
of these other organizations. In fact, I would say that our 
studies showed that the burden should be to push things out 
into the field.
    So I would argue if this is not a large bureaucracy but it 
is an operational bureaucracy in Washington that pushes things 
out to the field, then it is an excellent idea.
    Mr. Nye. I think what we concluded was that you needed in 
addition to these better integration devices in the field at 
the embassy team level, you needed to have a voice around the 
Oval Office who could speak for development. The Secretary of 
State has a lot of things on her plate or his plate, and you 
need somebody who can also speak with authority about the 
importance of development issues.
    We also felt or I felt rather--that is I think Rich and I 
feel, but it is not official in the Commission report--that the 
abolition of the U.S. Information Agency was a mistake, that 
its absorption into the State Department actually did not raise 
its capacity but lowered our capacity in public diplomacy.
    In the Commission report, as you know, we didn't quite 
recommend the recreation of the USIA--some commissioners didn't 
want to go that far--but we did say that something should be 
done to raise the prominence of this public diplomacy function. 
So both the development voice and the public diplomacy voice 
need better representation at higher levels. There are still 
some differences in detail about exactly how that should be 
accomplished.
    Mr. Tierney. Thank you, Ms. McCollum.
    Mr. Turner, you are recognized for 5 minutes.
    Mr. Turner. Thank you so much. Mr. Chairman, thank you for 
having this hearing, and I also want to thank our two panel 
members for your efforts in bringing this report forward.
    I think almost everybody, upon reading this report, will 
agree with the sort of sense that you have given of our current 
status, of where we are and the real importance of addressing 
it.
    The how-to, I appreciate your recommendations and also some 
of the focus that you have given. I note you indicate there is 
no silver bullet. So, as we look at these, it is one of those 
hard to define areas as to how do we move forward and how do we 
know that we are being successful.
    One of the things that is recognized in your report that I 
find is a conflict in our view of how we are perceived 
internationally is that you acknowledge that America is still 
viewed as the land of opportunity, that people still look to us 
as an opportunity for them, and you go on then to say that as 
the land of opportunity, that we must lead.
    I want to tell you a story. I recently was in Poland, and I 
was talking to a woman about the time when Poland was free of 
communism and had begun to set a new course, and I asked her to 
speak about it and speak about how exciting that must have been 
to get their country back and freedom and what the future held.
    She said, well, I didn't think about it much at the time. I 
thought about, well, now I can go to America.
    I thought that was interesting because, here, I am asking 
her to speak of her own nationalism and of the opportunities, 
and her translation to freedom after all these years was and 
now I want to go to America.
    How is it that we can be perceived so poorly but yet still 
be that symbol of people want to go to when they think of their 
own freedom?
    Mr. Nye. Well, one of the interesting things about soft 
power's ability to attract is that it grows out of our culture, 
out of our values and out of our policies. When we ask people 
in public opinion polls, why we have lost that attraction, it 
tends to be disagreement with our policies, not with our values 
and culture.
    That is good news. Policies can change. Values and cultures 
don't. The fact that the United States still is seen as a land 
of opportunity, a land of openness means that a great deal of 
our soft power is produced by our civil society, not by the 
government.
    The great danger is to make sure that in response to 
terrorist incidents or other such things, that we don't cut 
ourselves off from that value of openness, that openness of 
opportunity. Others can come here. Others can study here. This 
is the land of opportunity. That is attractive to others.
    If we get ourselves into a mentality of cutting back, no 
visas, no immigrants, no trade, that would be this example of 
jujitsu that I mentioned in which the terrorists are using our 
strength against ourselves, and your Polish woman's example is 
a perfect case of that.
    Mr. Armitage. Congressman, I think that story makes me very 
proud and it is indicative of the fact, I think, that most 
nations, most, really want us to be what Ronald Reagan would 
say, that shining city on the hill.
    But where the disappointment comes in is when our actions 
don't meet our words, and then we introduce the possibility 
that we are living a double standard, that we are two-faced, 
etc. That brings in the cynicism about us and our motives.
    We are talking a lot about the low esteem in which we are 
held in some parts of the world. We ought to also recognize 
that in places like the African continent, we are not in that 
bad of shape throughout the continent and certainly in Asia we 
are in somewhat better shape. So this is a mixed picture.
    I think we ought to look at what is going right in terms of 
public opinion in Asia and Africa and ask our questions of why. 
One of the reasons in Africa is very clearly the pep for 
initiatives on infectious diseases, HIV-AIDS. It is very well 
recognized although the President doesn't get much credit for 
it.
    Mr. Turner. China is another area--if I might, Mr. 
Chairman--if you could comment on it. You recognize in your 
report the rise of China's influence through using soft power 
and smart influence. Would you please comment on that for a 
moment?
    Mr. Nye. Well, China has been very adept in combining the 
rise of its hard power seen in its economy and military 
investments with soft power which is in diplomacy and 
investment in culture and efforts present a smiling face to the 
rest of the world.
    That is a smart strategy. If you are a rising power, the 
last thing you want to do is create fear in other people to 
ally against you. You want to combine soft power with your hard 
power as a smart power. China, as they said at their own 17th 
Party Congress a week or so ago, China realizes that soft power 
is in its interest.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    We have four votes that are coming up. The first one is a 
15-minute vote. The subsequent ones are 5 minutes. We are going 
to run up as close as we can to the line. We promise to keep 
our word and have you gentlemen both out of here well before 4 
p.m.
    So we will run down and we will vote. It may take 25-30 
minutes and then come back if we can.
    Mr. Higgins, you are recognized for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Armitage, you had said the military has to be reset, 
which got me thinking. On a recent trip to Afghanistan and 
Pakistan with Congressman Lynch and Platts, the one hopeful 
sign was the attitude of the American military. In the most 
difficult places along the Pakistan-Afghanistan border, it was 
the military folks who were emphasizing that this was equal 
parts. Their mission is equal parts, military and equal parts, 
humanitarian.
    What we had observed was the medics, for example, doing 
surgery on a young boy whose fingers were fused together. This 
is what they did in addition to treating injured soldiers which 
was promoting good will amongst the folks in these very remote 
Afghan villages.
    So my question is resetting the military, is it an 
integration of humanitarian work within the military or is it a 
greater emphasis on humanitarian work as separate and distinct 
from the military operation?
    Mr. Armitage. First of all, there is no question, 
Congressman Higgins, that the military can and does participate 
in soft power activities. You mentioned one on the Afghan-
Pakistan border. There are many, well, the tsunami relief in 
Indonesia, an application of soft power that dramatically 
changed the view of Indonesia citizenry toward the United 
States.
    But I think there is a danger for all of us, and there is 
certainly a danger for our servicemen. We are calling on our 
service people time and time again to do things. Sometimes they 
are things they train for, and humanitarian assistance is one 
of the missions. We participated in it back in Vietnam.
    But if we call on them time and time again because they are 
organized and they are used to making chicken salad out of you 
know what, we run the risk of having the other elements of our 
great bureaucracy become more and more incompetent to do a job 
that they should be paid to do.
    We are arguing that the military will do splendidly and 
will perform splendidly in any mission you give them. We want 
other elements of our bureaucracy to perform equally splendidly 
alongside and integrated with them in a strategic way.
    Mr. Nye. I would agree with what Rich just said. The 
military can contribute a great deal to our soft power. If you 
look at the role that the Navy is now playing. It is 
interesting how they are contributing in this way, but they 
also have to be able to have the capacity to do their military 
job.
    Sometimes, because they are a well functioning bureaucracy 
in comparative terms, we turn to them to do more than they 
should. The answer or remedy for that is to improve the 
capacities and resources for our civilian agencies.
    Mr. Higgins. Let me give just a final thought on this. It 
seems as though perhaps what is needed in the post-9/11 era is 
the post-World War II American strategy which because of our 
great military and economic superiority, at the end of World 
War II, we had the world at our feet. As opposed to 
demonstrating arrogance, we traveled the world and demonstrated 
not only military superiority, not only economic superiority 
but, more important than anything else, a generous spirit and 
created international organizations which would become forums 
of the jurisdictions within which international conflict would 
be resolved.
    It just seems to me that the past 6 years have been a 
meandering and a trial and error type of policy that finds us 
in a very, very difficult situation relative to isolation. The 
United States is isolated.
    So what can we do at this point, given everything that has 
been done over the past 6 years, to strengthen these 
international organizations toward the goal of creating a 
greater emphasis on smart strategic power?
    Mr. Nye. You go ahead.
    Mr. Armitage. Well, there is no question in our report we 
want to have greater involvement in these international 
organizations and at a minimum, let's face it, every suggestion 
that comes from an IO is not one that we necessarily will agree 
with and we shouldn't in many cases.
    But it seems, to me, incumbent upon us that when we don't 
agree to offer an alternative, and I think that goes a long way 
in the international community. You are part of the team. You 
just don't agree with some of the aspects that the coach is 
trying to put into the game plan. So you have alternatives. 
This is very much, I think, the way we should go.
    There is a larger question, I think, sir, in your question. 
That is have we been searching around for our purpose in the 
world? Some might say that it is the Global War on Terror. That 
is why we are here, for this one event.
    I, personally, think it is quite a bit more than that. I 
think that I don't know why we are the sole superpower, why 
providence has granted this, but I know what it means. It means 
that we have, as a Nation, interest in every part of the globe 
and nothing really substantial is really going to take part in 
any part of the globe unless we are somewhere involved.
    Now I think we ought to have a national dialog. If that is 
the case, if you accept that definition of a superpower, what 
is our purpose in the world?
    I think as we found out from what we called a dialog with 
America. We sent teams out from CSIS in four different States, 
and they went to universities and video shows and everything, 
just meeting with normal folks.
    Much to our surprise, my surprise, folks were not 
isolationalists. I had always thought they were reluctant 
internationalists. They were not reluctant at all. They did not 
like to be held in low esteem. They wanted an America who was 
involved in the great activities of the day in a positive way, 
and this was a very uplifting development for me through the 
course of this.
    Mr. Tierney. Thank you.
    Mr. Shays, you are recognized for 5 minutes.
    Mr. Shays. Thank you.
    I am going to take Mr. Thornberry's time later and yield 
him time.
    Mr. Tierney. Mr. Thornberry, 5 minutes.
    Mr. Thornberry. Thank you, Mr. Chairman, for allowing me to 
be here.
    I remember being down at that witness table in the spring 
of 2001, testifying about changing the structure of the 
government to better meet the threat posed by terrorism. This 
subcommittee has often been on the cutting edge of changes that 
were needed, and I appreciate its hearing here today.
    That is really what I want to ask you all or invite you to 
address. This subcommittee involves government reform. Are we 
structured in a way to meet the challenges of the future?
    Some people would say that it is a matter of personality. 
We are going to have a new administration. They are going to 
have new cabinet officers. They can make it work.
    I would invite your all's view about whether it is 
personality or whether more structural reform, whether it is 
organizational or authorities, might be considered by this 
subcommittee.
    Mr. Armitage. Well, I think any amount of changing the line 
diagram would fail if you have incompetent people in major 
spots. So, to a large extent, personalities matter a lot.
    Whenever, in our bureaucracy, there is talk about reform or 
changing the structure, there is lot of neuralgia. Goldwater-
Nichols was the last one. I actually sat at this table and 
argued against it along with the chairman of the Joint Chiefs 
of Staff. So I know about sort of the bureaucratic 
encrustations that act against any movement.
    We were talking earlier about 1947, President Truman's 
dramatic decision having the Department of Defense and the CIA. 
Did anyone like it at the time? Probably not too much, but it 
was necessary.
    Our timing, as you know, Mr. Commissioner, of this report 
is rather deliberate. We are trying to get this issue involved 
in the Presidential debates. We are not naive. We are not 
ingenues. We know that this is not going to be in any way, 
shape or form accepted wholeheartedly by anyone, but if we can 
start this debate, then with pushes and shoves and whatnot from 
the committee, maybe we can get a little altitude on this 
thing.
    Mr. Nye. Personality matters, but so do structures, and we 
are not structured now to use our full tool kit of power. We 
have the tools, but we don't know how to put them together. If 
we are going to have a serious strategy, it is going to require 
a much better integration of the tools that we have. So I would 
argue that, yes, we are going to need structural reforms.
    Mr. Thornberry. I would yield back to Mr. Shays.
    Mr. Shays. I am just going to ask one question and put it 
on the record and then when my turn comes up.
    I am uneasy with this concept of terrorism as if it is some 
ethereal being. The 9/11 Commission was very clear: we are 
confronting Islamist terrorists who would do us harm.
    I am going to be asking you why you just referred to it as 
terrorism in your conversation. I do agree with your basic 
point, that hard power plus soft power equals smart power, but 
I just don't understand how we are leaving out the word, 
Islamist.
    Thank you, Mr. Chairman.
    Mr. Tierney. Do you want to answer that?
    Mr. Shays. No. We will get it later. I want to leave it.
    Mr. Tierney. Gentlemen, if you will excuse us, then we will 
come back in about 15 to 20 minutes if we are lucky and get 
another 15 to 20 minutes and then let you go. Thank you.
    [Recess.]
    Mr. Tierney. I apologize to Dean Nye. At a later point, we 
had no idea that there was one procedural vote. We still have 
three votes that we haven't done yet. They are still on the 
first vote.
    Mr. Armitage. Well, how did it come out? Did we impeach or 
not?
    Mr. Tierney. I also want to respect your time on this.
    Mr. Armitage. Not at all, sir.
    Mr. Tierney. Mr. Shays had a question hanging in the air 
which you have now had all this time to get prepared for.
    Mr. Shays. Thank you, Mr. Chairman.
    The question was why do we call it terrorism when the 9/11 
Commission unanimously said this isn't terrorism, it is 
Islamist terrorists and they have been targeting us for years?
    Mr. Armitage. I asked Joe why, I think, he used the term 
that you took issue with, and he said he blew it. It was 
inadvertent. The near term threat is al Qaeda which is Islamist 
and that is what we have to concentrate on.
    I take issue with the word, terrorism. It is the only time 
in my recorded history when Mr. Rumsfeld and I were on the same 
side of the issue. Terrorism is a tactic, and so I would prefer 
the Islamist extremists right now and then there could be other 
extremists out in the future.
    I mean the lesson that people learned, and there are some 
funny people out there, is it could be transported to other 
terrorist groups who don't happen to be Islamist, but you are 
exactly right. This is the present threat. This is a proper 
acknowledgment would be Islamist extremism or terrorists.
    Mr. Shays. Well, you got me to think about the term, 
terrorists, to radicals or extremists because you say terrorism 
is basically a tactic threat.
    Mr. Armitage. Yes, I have just noted that we didn't have a 
war against kamikazes. It was a tactic. You don't have a war 
against snipers. It is a tactic, and that is what terrorism is, 
a tactic, in my view.
    So it is a semantic thing and probably not even in 
important. It has just always occurred to me.
    Mr. Shays. One of the things that I wrestle with is in the 
fifties I grew up where I began to understand that we had to 
confront the Soviet threat and we basically contain, react and 
mutually assure destruction, but the American people bought 
into that.
    I don't have a sense that the American people have a sense 
of what the threat is and what our strategy is to deal with 
that threat, and I don't feel like we have debate about it in 
the public marketplace. I don't think our candidates talk about 
what our strategy needs to be, and it just surprises me that we 
haven't had that.
    I will just make another point to you. I am struck by the 
fact that even the strategy to deal with the Communist threat 
got changed a bit after Sputnik. I felt it primarily was 
military in the beginning, and then we said, my gosh, it is 
military, it is economic, it is technology. In the end, we 
probably beat them as much by technology and our economy as we 
did with our military might.
    Mr. Armitage. Indeed, I think we probably didn't get off to 
the right foot in the cold war, but you know we did apply smart 
power.
    Let me give you an example. I was being facetious about the 
Joe Henley French Revolution comment, but one of the advisors 
to Gorbachev was a fellow by the name of Yakovlev. He is the 
fellow who came up with the term, perestroika.
    Actually, back in the bad days of the cold war when we were 
tightly constraining the number of Soviet citizens who might 
come here, he actually studied at Columbia, and he studied 
under a professor who taught him about pluralism. Yakovlev went 
back to the then Soviet Union with an idea that pluralism could 
work, and 20 years later he was the advisor. So it took a while 
to realize that investment, but we realized that investment.
    Mr. Shays. Well, let me just thank you for all your good 
work to our country and service for so many years. You have 
been an advisor to so many people, and I appreciate all your 
input whenever I have called on you. Thank you.
    Mr. Armitage. Thank you, sir.
    Mr. Tierney. Thank you, Mr. Secretary. I am going to ask 
you just one brief question.
    Mr. Armitage. Yes, sir.
    Mr. Tierney. We had Walter Isaacson testifying on an 
earlier panel, and one of the things he was talking about was 
the possible creation of new treaty alliances.
    Mr. Armitage. Proper which, sir? I have left one ear in 
Vietnam, so I am having a little trouble.
    Mr. Tierney. I don't know which side to talk to.
    He talked about creating some new treaty alliances, the 
possibility of that. Do you foresee any of that, rearranging 
some of the alliances that we have or staying within the 
existing ones moving forward?
    Mr. Armitage. I don't see rearranging our existing 
alliances. We do see new structures.
    For instance, sir, we have a G8 structure which we well 
know we think we could add usefully five other members to that 
for certain items such as environment and things of that 
nature. We envision making more use of the G20 which together 
counts for about 80 percent of the gross domestic product of 
the world, about 80 percent of the carbon emissions. So there 
are new groupings that we can see, using some of the existing 
structures and expanding them.
    Mr. Tierney. Mr. Secretary, is there anything you would 
like to comment on to leave us with today?
    Mr. Armitage. No. I very much appreciate your making the 
effort.
    Mr. Tierney. Well, I appreciate you and Dean Nye coming 
forward today, and I appreciate the report and hard work of the 
entire Commission and the two of you gentlemen. I appreciate 
again, as Mr. Shays said, all your service to the country.
    Mr. Armitage. My pleasure, sir.
    Mr. Tierney. Mr. Shays wants to add the last word.
    Mr. Shays. I have just one last question. I don't want to 
get you in trouble if this isn't a question you want to answer. 
When I have gone to Iraq, I have been struck by the fact that 
had we had an embassy there, we would have known what a 
pathetic condition the economy was and so on. We just would 
have had people around.
    I am just struck by the fact that we should have an embassy 
in North Korean, in Iran, in Cuba, and not have politics play a 
role in whether or not we have in place.
    Mr. Armitage. Well, back in 1991, when we still had an 
embassy there, we knew a lot. We didn't know, however, that 
Saddam Hussein was going to strike into Kuwait. So we will know 
some things and not others.
    Your broader point, from my point of view, we ought to be 
talking to our enemies as much as we are talking to our 
friends, and we ought to have the courage of our own 
convictions and confidence in our abilities to sit at a table 
with these characters and not have our pockets picked. That has 
been lacking.
    Mr. Tierney. Thank you very much, Mr. Secretary.
    Mr. Armitage. Mr. Chairman, Mr. Shays, thank you.
    [Whereupon, at 3:50 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
